   May 10, 2002




Defense
Infrastructure
Department of Defense Policies and
Procedures to Implement the Rural
Development Act of 1972
(D-2002-089)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General of the
 Department of Defense Home Page at www.dodig.osd.mil/audit/reports or contact the
 Secondary Reports Distribution Unit of the Audit Followup and Technical Support
 Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                Inspector General of the Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

U.S.C.                United States Code
                  Inspector General of the Department of Defense
Report No. D-2002-089                                                          May 10, 2002
   (Project No. D2002CG-0042)

              Department of Defense Policies and Procedures to
               Implement the Rural Development Act of 1972

                                  Executive Summary

Introduction. The audit was performed to determine whether DoD has established
policies and procedures to implement the requirements of the Rural Development Act of
1972. Public Law 107-67, “Treasury and General Government Appropriations Act,
2002,” section 647, November 12, 2001, requires the Inspector General of each
applicable department or agency to submit a report to the Committee on Appropriations
detailing what policies and procedures are in place for each department or agency to give
first priority to the location of new offices and other facilities in rural areas, as directed
by the Rural Development Act of 1972.

Results. The Office of the Secretary of Defense, the Military Departments, and Defense
agencies did not establish policies and procedures to specifically give first priority to the
location of new offices and other facilities in rural areas. Existing DoD guidance dictates
that a thorough analysis of all alternatives be made before the acquisition of new
facilities. However, specifically reflecting the requirements of the Rural Development
Act of 1972 in DoD policies will result in additional assurance that DoD meets the intent
of the Act. For details, see the Finding section of the report and Appendix A for details
on the management control program.

Summary of Recommendation. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics revise existing policies and procedures to
require DoD Components to give first priority consideration to rural areas for location of
new offices and other facilities as required by the Rural Development Act of 1972.

Management Comments. We provided a draft of this report on April 15, 2002. No
management comments were received. We request that the Under Secretary of Defense
for Acquisition, Technology, and Logistics provide comments on this report by
June 10, 2002.
Table of Contents

Executive Summary                                          i


Introduction
     Background                                            1
     Objectives                                            1

Finding
     Implementation of the Rural Development Act of 1972   2

Appendixes
     A. Audit Process
          Scope                                            5
          Methodology                                      5
          Management Control Program Review                5
          Prior Coverage                                   6
     B. Report Distribution                                8
Background
     Public Law 107-67, “Treasury and General Government Appropriations Act,
     2002,” section 647, November 12, 2001, states:

     “Not later than 6 months after date of enactment, the Inspector General of each
     applicable department or agency shall submit to the Committee on Appropriations
     a report detailing what policies and procedures are in place for each department or
     agency to give first priority to the location of new offices and other facilities in
     rural areas, as directed by the Rural Development Act of 1972.”



Objectives
     The overall objective was to determine whether DoD has established policies and
     procedures that implement the requirements of the Rural Development Act of
     1972. Specifically, we determined whether the Office of the Secretary of
     Defense, the Military Departments, and Defense agencies have policies and
     procedures in place to give first priority to the location of new offices and other
     facilities in rural areas. We also reviewed the management control program as it
     related to the implementation of legislation affecting DoD. See Appendix A for a
     discussion of the audit scope and methodology and our review of the management
     control program. Also see Appendix A for a summary of prior audit coverage
     related to the audit objectives.




                                          1
           Implementation of the Rural
           Development Act of 1972
           The Office of the Secretary of Defense, the Military Departments, and the
           Defense agencies did not establish policies and procedures to specifically
           give first priority to the location of new offices and other facilities in rural
           areas. This occurred because DoD believed its first priority related to
           mission requirements and that existing policies and procedures satisfied
           the intent of the Rural Development Act. Revising DoD policies to
           specifically reflect the requirements of the Rural Development Act of
           1972 will result in additional assurance that DoD meets the intent of the
           Act.


Congressional Guidance
    Public Law 92-419, “Rural Development Act,” August 30, 1972 (as codified in
    section 2204b-1, title 7, United States Code [7 U.S.C. 2204b-1]), defines the
    approach to rural development by giving priority for new Government offices and
    facilities to rural areas. Specifically, section 601 of Public Law 92-419 states:
               Congress hereby directs the heads of all executive departments and
               agencies of the Government to establish and maintain departmental
               policies and procedures giving first priority to the location of new
               offices and other facilities in rural areas as defined in the private
               business enterprise exception in section 306(a)(7) of the Consolidated
               Farmers Home Administration Act of 1961, as amended (7 U.S.C.
               1926). The President is hereby requested to submit to the Congress not
               later than September 1 of each fiscal year a report reflecting the efforts
               during the immediately preceding fiscal year of all executive
               departments and agencies in carrying out the provision of this section,
               citing the location of all new facilities, and including a statement
               covering the basic reasons for the selection of all new locations.



DoD Policy and Procedures on the Rural Development Act
    Office of the Secretary of Defense. The Office of the Secretary of Defense had
    issued no specific guidance on implementation of the Rural Development Act of
    1972, which is intended to boost rural economies and save the Government money
    on new facilities. DoD Directive 4165.6, “Real Property Acquisition, Management
    and Disposal,” September 1, 1987, prescribes that the Military Departments and
    Defense agencies shall determine which real property is needed to satisfy military
    requirements and ensure that the property is obtained and disposed of only when the
    real property has no foreseeable military requirement. The directive establishes the
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics as the responsible office for DoD policy regarding the acquisition,
    management, and disposal of real property. Specifically, the Office of the Deputy
    Under Secretary of Defense (Installations and Environment) is responsible for
    implementing policy, including the provisions of the Rural Development Act.

                                              2
Installations and Environment officials stated that, although their office is
responsible for this function, they have not specifically established policies or
procedures for implementing the requirements of the Rural Development Act.

Although DoD guidance does not state that rural locations will be given first
priority for new offices and facilities, rural areas are given appropriate
consideration through the established site selection process based on mission
requirements and cost considerations. Specifically, DoD Directive 4165.6 provides
conditions for the acquisition of real property. When DoD Components acquire real
property, the DoD Components must first determine that the requirements cannot be
satisfied by:

        •   emergency use or national defense clauses in deeds of conveyance,

        •   excess or otherwise available property held by other Military
            Departments or Federal agencies, or

        •   exercise of existing DoD authorities or those of the General Services
            Administration for the exchange of DoD-controlled real property or
            surplus Federal property for privately owned property.

Before acquiring real property, DoD Components are also required to perform an
economic analysis, as prescribed by DoD Instruction 7041.3, “Economic Analysis
for Decisionmaking,” November 7, 1995. The economic analysis is used to
evaluate the costs and benefits of investment alternatives and applies to the
evaluation of decisions about acquisition of real property or other assets, either by
lease or purchase. A key principle of the economic analysis is that each feasible
alternative for meeting an objective must be considered, and its life-cycle costs and
benefits evaluated. Each analysis must, at a minimum, consider and document the
alternatives of status quo, new acquisition, leasing, and modification of existing
assets. The analysis also requires that each alternative be fully investigated and a
determination made whether it satisfies the functional requirements for the project.
If a rural area is the best alternative for the location of new DoD offices or facilities,
this existing DoD guidance dictates that it will be selected.

DoD Directive 4165.6 requires the Secretaries of the Military Departments and
Directors of Defense agencies to adhere to policy guidance provided by the Office
of the Secretary of Defense and to establish procedures to carry out those policies.
Therefore, without guidance on rural areas, none of the Military Department or
Defense agency current procedures contained provisions that specifically assign a
priority to the location of new offices and facilities in rural areas.

Department of the Army. The Office of the Assistant Secretary of the Army
(Installations and Environment) has policies governing the acquisition of real
estate by transfer, purchase, lease, or condemnation as established in Army
Regulation 405-10, “Acquisition of Real Property and Interests Therein,”
August 1, 1970. Army real estate officials stated that they do not have policy or
procedures in place to specifically meet the requirements of the Rural
Development Act of 1972.



                                       3
    Department of the Navy. Secretary of the Navy Instruction 11011.47,
    “Acquisition, Use by Others and Disposal of the Department of the Navy Real
    Property,” June 20, 1983, is the governing policy guidance for Navy acquisition
    and management of real property. The Office of the Assistant Secretary of the
    Navy (Installations and Environment) stated that it does not have policy or
    procedures in place to meet the requirements of the Rural Development Act of
    1972, but will issue a memorandum that will instruct Navy commands to comply
    in response to the Office of the Deputy Under Secretary of Defense (Installations
    and Environment).

    Department of the Air Force. The Office of the Deputy Chief of Staff of the Air
    Force (Installations and Logistics) is currently drafting a revision to Air Force
    Handbook 32-9007, “Acquiring Real Property,” May 1, 1999, to make the
    requirements of the Rural Development Act of 1972 a consideration when major
    commands acquire real property by lease or purchase. Section 1.51.1., “Requests
    for GSA-Owned or -Leased Space,” provides that the originator of the request
    acknowledge that the delineated area is in compliance with all laws and Executive
    Orders governing the location of space, including the Rural Development Act of
    1972, 42 U.S.C. 3122, and Executive Order 12072, “Federal Space Management,”
    August 16, 1978 (section 3100.41, title 7, Code of Federal Regulations). The
    revision is expected to be final by the end of calendar year 2002.

    Defense Agencies. Officials in the Office of the Deputy Under Secretary of
    Defense (Installations and Environment), who are responsible for DoD
    installation policy, stated that they are not aware of any Defense agency
    implementing procedure that gives first priority to rural areas when determining
    their real property needs.



Recommendation
    We recommend that the Under Secretary of Defense for Acquisition, Technology,
    and Logistics revise existing policies and procedures to require Defense agencies
    and Military Departments to give first priority consideration to rural areas for the
    location of new offices and other facilities as required by the Rural Development
    Act of 1972.



Management Comments Required
    The Under Secretary of Defense for Acquisition, Technology, and Logistics did
    not comment on a draft of this report. We request that the Under Secretary of
    Defense for Acquisition, Technology, and Logistics provide comments on the
    final report by June 10, 2002.




                                         4
Appendix A. Audit Process

Scope
    Work Performed to Overall Audit Scope. We reviewed DoD guidance, visited
    the Office of the Secretary of Defense staff elements and Service headquarters to
    discuss implementation of the guidance, and reviewed published literature and
    congressional transcripts.

    Scope Limitation. We limited our assessment of the management control
    program to the implementation of the Rural Development Act of 1972.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.



Methodology
    Audit Dates and Standards. We performed this audit from November 2001
    through March 2002 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted organizations within DoD.
    Further details are available on request.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40. The absence of DoD
    policy and procedures to implement the requirements of the Rural Development
    Act of 1972 is a material management control weakness. The recommendation, if
    implemented, will assist in improving compliance with the Rural Development
    Act.




                                        5
Prior Coverage

General Accounting Office
     General Accounting Office Report, GAO-01-85, “Facilities Location: Agencies
     Should Pay More Attention to Costs and Rural Development Act,” July 31, 2001.
     The review focused on Federal functions that lend themselves to locations other
     than Washington, D.C. and Federal regional cities. DoD was excluded from the
     review since it has vacant space available at bases nationally and must consider its
     existing vacant space when locating new operations. The review included:

            •   executive branch functions recently locating to urban locations
                compared to rural locations,
            •   laws and policies governing facility location and agency guidance for
                implementation,
            •   lessons learned from private sector site selections, and
            •   functions that lend themselves to being located in rural areas.
     The report states that only 5 of the 13 cabinet departments contacted had
     established policies and procedures to implement the Rural Development Act. Of
     113 relocation sites responding to a survey, 24 had agency policies, 61 did not
     have agency policies, and 28 did not know if their agencies had policies.
     Functions recently located at urban sites were loans, grants, and benefits
     administration processing; inspection and auditing; and health and medical
     services. Functions recently located in rural areas were research and
     development, supply and storage, automatic data processing, and finance and
     accounting.
     The report observed that rural areas are not clearly defined. Prior to 1996, the
     private business enterprise exception in section 306(a) of the Consolidated Farmer
     Home Administration Act of 1961 referred to an exception in 7 U.S.C. 1926(a)(7)
     that defined rural as
                . . . all territory of a State that is not within the outer boundary of any
                city having a population of fifty thousand or more and its immediately
                adjacent urbanized and urbanizing areas with a population density of
                more than one hundred persons per square mile.

     In 1996, 7 U.S.C. 1926(a)(7) was repealed and replaced with a new section
     1926(a)(7) that defines “rural” and “rural areas” only for the purpose of water and
     waste disposal grants and direct guaranteed loans as a city, town, or
     unincorporated area that has a population of no more than 10,000 inhabitants.
     The report suggests that Congress consider enacting legislation to require
     agencies to consider, along with their mission and program requirements, real
     estate, labor, and other operational costs as well as applicable local incentives
     when deciding whether to relocate or establish a new site in a rural area or urban
     area and amend the Rural Development Act to clarify the definition of “rural
     area.”

                                                6
Inspector General of the Department of Defense, and Service
  Audit Agencies
     No prior coverage has been conducted on this subject during the last 5 years.




                                         7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                           9
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense, produced this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
Wayne K. Million
Bobbie Sau Wan
Gary B. Dutton
Joyce S. McCutcheon
Lisa Rose-Pressley
